MEMORANDUM


DATE:          August 1,1997

TO:            I97050021    p




Background




referee taking advantage of more recent work by four other researchers, and 2)
Dr. a               y have received double travel reimbursement for a conference i    e
on June 27-30, 1995.




Investigative Results
No significant evidence of duplicate travel reimbursements were found for Dr.
n                 his June 27-30, 1995                      no travel reimbursement
duplications were found for any of Dr.                  avel charged to NSF since
                                                                      -
January 1994, based on a random sampling. ~ - r            -
                                                            .      a stayeds within
budgetary guidelines for NSF travel.

Investigative Methods and Scope

The allegations regarding the paper submission'is referred to Misconduct and Dr.
The allegations regarding financial misconduct were investigated as follows:
                                                                                      m
June 27-30, 1995 Travel:




                                                                      -
                    by s     i t y and documents pertaining thereto were obtained
                              against Dr.           SF award h n d disbursements
frG                 niversity for-the

                                             ocuments showed that Dr.
received from                                           for lodging and meals in Vienna from
                                                                         for one night of
lodging, July 3, 1997, in the amount of $12 1.10 US ollars, based on the July 1995
exchange rate of 4.8307FF to 1US. Althou h this is technically a double reimbursement
for the date of July 3, 1997, D r . d u c h e r for payment to

period, and Dr. D
lumps together his tri to Vienna with trips tb several other countries in
                                 ays 84% of the expenses on the voucher from his own
private funds, making it difficult to distinguish which portion of his travel was repaid.

Other Travel:
The provider of two sample conferences, held one year apart, to which Dr.
traveled and charged to NSF. was called for reimbursement1 honoraria information.
Dr.                   not be& paid any amounts from their organization for either of the
two co erences. One other conference reimbursement was found to'have been a fee for
the conference, documented adequately by receipt from the conference.

Budget for Awards:
                  as budgeted $10,378 of travel under his                  NSF award.
                   tal of $8,378.42. Other than some variations in domestic vs. foreign
                         as stayed within the annual expenditure guidelines.

Conclusions
Based on the above information analyzed, no significant findings of fraud, waste or abuse
of federal hnds is found, and the investigative portion of this case is closed.
